CERTIFICATE OF COMPLIANCE

No. 19-1231
Federal Communications Commission, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents.
No. 19-1241
National Association of Broadcasters, et al.
v.

Petitioners

Prometheus Radio Project, et al.,
Respondents
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus Curiae
Public Citizen contains 6017 words, excluding the parts of the brief that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 22, 2020.
/s/ Nandan M. Joshi

